CERTIFICATE OF SERVICE
I, Marjorie Hauf, hereby certify that 1 copy of the foregoing Petition for a
Writ of Certiorari in SERGIO MOMOX-CASELIS, individually and as Guardian Ad
Litem for MARIA MOMOX-CASELIS,· and SERGIO MOMOX-CASELIS and
KRISTIN WOODS as Co-Special Administi-ators of the estate ofMM;
PETITIONERS v. TA.RA DONOHUE; LISA RUIZ-LEE,· KIM KALLAS; JEREMY
LA w,· SHUUANDY ALVAREZ,· LANI AITKEN,· OSCAR BENA VIDES,· PATRICIA
MEYERS,· COUNTY OF CLARK, a political subdivision of the State ofNevada, was
electronically filed with the U.S. Supreme Court, and e-mailed to the following
parties listed below, with consent, this 26th day of August, 2021:
Olson Cannon Gormley & Stoberski
Felicia Galati, Esq.
9950 W Cheyenne Avenue
Las Vegas, Nevada 89129
(702) 384-4012
Counsel for Respondents

I further declare under penalty of perjury that the foregoing is true and
correct. This Certificate is executed on August 26, 2021.

Marjorie Hauf, Esq.
H&PLAW
8950 W Tropicana Ave., Ste. 1
lt1. · Veg.:1 ·. NV 89147
(702) 598-4529
Sworn to and subscribed before me by said Affiant on the date designated

brw
11?/4[1/\
NOTARY PUBLIC

NOLAN ANDREW OLLER
Notary Public, State of Nevada
Appointment No. 20-8389-01
My Appt. Explre5 Oct 18, 2024
-

